OBSERVATIONS ON SHORT-TERM
    CAPACITY INITIATIVES
    Federal Aviation Administration

     Report Number: AV-2008-087
   Date Issued: September 26, 2008
U.S. Department of                       The Inspector General    Office of Inspector General
Transportation                                                    Washington, DC 20590
Office of the Secretary
of Transportation



September 26, 2008

The Honorable James L. Oberstar
Chairman, Committee on Transportation
 and Infrastructure
House of Representatives
Washington, DC 20515

The Honorable John Mica
Ranking Member, Committee on Transportation
 and Infrastructure
House of Representatives
Washington, DC 20515

The Honorable Jerry F. Costello
Chairman, Subcommittee on Aviation
House of Representatives
Washington, DC 20515

The Honorable Thomas E. Petri
Ranking Member, Subcommittee on Aviation
House of Representatives
Washington, DC 20515

Dear Chairmen Oberstar and Costello and Ranking Members Mica and Petri:

As requested, we are providing our observations on the Federal Aviation
Administration’s (FAA) current efforts to increase capacity in the National Airspace
System. Specifically, you requested that we provide our observations on the
initiatives that will provide the most capacity benefits in the next 5 years, including
updates on FAA’s efforts to redesign airspace and implement performance-based
navigation initiatives, i.e., Area Navigation (RNAV) and Required Navigation
Performance (RNP). Consistent with your request, our objectives were to (1) identify
the initiatives—both technological and procedural—that will provide the most
capacity benefits in the next 5 years and (2) examine FAA’s process for implementing
and managing interrelationships among the various efforts. The results of our review
are discussed below and further detailed in the enclosed briefing, which we provided
to your staff on July 2, 2008.

Report Number AV-2008-087
                                                                                                                      2


As we stated in our testimony before the Subcommittee on Aviation in April,1
enhancing the capacity of the National Airspace System, particularly at already
congested airports, and improving airline customer service are important issues facing
the Nation. The summer of 2007 was part of the worst year on record for flight
delays; cancellations; and long, on-board delays—the underlying causes of airline
customer dissatisfaction. The Senate Joint Economic Committee estimates that last
year’s flight delays alone cost the airlines, passengers, and the U.S. economy more
than $40 billion. Peak-year 2007 trends continued into early 2008. In the first
6 months of 2008, more than 1 in 4 flights (29 percent) were delayed or cancelled.
Not until July did on-time performance show a substantial improvement compared to
the same month last year.

Because delays in the New York region have a nationwide effect, the Secretary of
Transportation formed the New York Aviation Rulemaking Committee (ARC) last
September to explore ways to alleviate congestion and delays in the New York area.
In addition, the Secretary directed FAA to negotiate with the airlines and established
temporary flight caps at the John F. Kennedy and Newark/Liberty airports. The
Secretary also proposed auctioning a limited number of take-off and landing
opportunities (known as “slots”) at these two airports. This approach, however, is a
very controversial issue among some stakeholders.

The Department, FAA, and various stakeholders have identified several initiatives to
enhance capacity. The ARC identified 77 action items, including operational and
infrastructure improvements, to mitigate delays in the New York metropolitan area.
Of these action items, FAA states that 17 are complete, 30 are expected to be
complete by the end of fiscal year (FY) 2008, and 40 by the end of FY 2009. The
remaining items are either planned for the long term or undergoing analysis to
establish feasibility and priorities. In this audit, we did not assess whether these
initiatives targeted specifically for New York were effective in reducing delays.

Since we testified in April, the airlines have continued to face considerable financial
uncertainty due to skyrocketing fuel costs and a softening economy. In response,
airlines are reducing flight schedules and taking aircraft out of service. Nevertheless,
FAA forecasts that the demand for air travel will grow. Even if airlines further reduce
their schedules, FAA points out—and we agree—that the Agency and stakeholders
must address the underlying causes of delays. We believe the current situation
provides FAA with an important opportunity to better plan, prioritize, and manage
capacity initiatives.

The long-term solution to increasing capacity and reducing delays depends largely on
expanding capacity through the Next Generation Air Transportation System
(NextGen), which is targeted for the 2025 timeframe. Although FAA is exploring

1
    OIG Testimony Number CC-2008-058, “Status Report on Actions Underway To Address Flight Delays and Improve
    Airline Customer Service,” April 9, 2008. OIG reports and testimonies are available on our website: www.oig.dot.gov.

Report Number AV-2008-087
                                                                                                                    3


ways to accelerate NextGen, much work remains to set realistic expectations for when
capacity-enhancing initiatives can be delivered. Therefore, it will be important to
keep several near-term, capacity-enhancing initiatives on track.

FAA Must Address Challenges With Several Initiatives Underway That Could
Reduce Delays and Boost Capacity in the Near Term
While there is no “silver bullet” for addressing delays, we identified five FAA
initiatives underway that can help reduce congestion and enhance capacity over the
next 5 years. 2

New Airport Infrastructure – According to FAA, building new runways provides the
largest increases in capacity. Currently, there are nine key runway projects underway
at seven Operational Evolution Partnership (OEP) airports. These projects are
expected to be complete by 2012 and, according to FAA, will provide those airports
with the potential to accommodate an additional 400,000 operations annually. These
capacity benefits, however, cannot be realized without new air traffic control
procedures and improved airspace redesign.

Challenges that could impede the progress of new runway projects include the years
of planning required, extensive environmental reviews, coordination among numerous
stakeholders, and legal issues. Another challenge is making corresponding
improvements to an airport’s infrastructure (e.g., terminal gates and passenger waiting
areas) to accommodate the increased traffic. Unfortunately, building a new runway is
not an option for some airports, like LaGuardia.

Airspace Redesign – Airspace redesign efforts are critical to realizing the full benefits
of runways and can enhance capacity without new infrastructure. Currently, FAA is
pursuing seven airspace redesign projects nationwide, including a major effort to
revamp airspace in the NewYork/New Jersey/Philadelphia area. Once implemented,
FAA believes this effort could reduce delays by as much as 200,000 hours.

FAA has done a better job of coordinating airspace changes with Agency stakeholders
and linking projects to its capital account 3 since we reported on the airspace redesign
program in 2005.4 We remain concerned, however, that FAA’s airspace redesign
efforts still do not function as a “national” program since FAA facilities are now using
their own resources to redesign airspace without coordinating with Headquarters.
FAA is developing procedures to address this problem, but those have not been
finalized. Further, since 2005, the airspace redesign program has experienced

2
    We did not assess planned NextGen demonstration projects or the potential benefits of proposed demand management
    techniques.
3
    Prior to 2007, FAA’s airspace program was funded solely from the Operations account. By linking each project’s
    requirements to both the operations and capital budgets, the Agency was able to address procedural, environmental,
    technical, and staffing requirements to complete the implementation process.
4
    OIG Report Number AV-2005-059, “Airspace Redesign Efforts Are Critical To Enhance Capacity but Need Major
    Improvements,” May 13, 2005.

Report Number AV-2008-087
                                                                                                                           4


significant funding reductions, from $15.3 million to $6.8 million—a 70-percent
decrease. We are concerned that this could steer the program off track and note that
FAA funded only three of seven planned airspace projects last year.

Performance-Based Navigation Initiatives – FAA is pursuing two initiatives that rely
on aircraft avionics for improved route precision: RNAV and RNP. RNAV allows
aircraft to fly any desired flight path without the limitations imposed by ground-based
navigation systems. RNP adds an on-board performance monitoring and alerting
capability for pilots and allows aircraft to fly more precise flight paths into and out of
airports. This reduces fuel burn, boosts controller productivity, reduces noise
emissions, and increases capacity.

As of June 5, 2008, FAA had published more than 400 RNAV/RNP routes and
procedures and made this capability available at 98 airports. The Agency intends to
publish at least 100 RNAV and 75 RNP procedures for the period FY 2008 through
FY 2009, with priority given to new routes for airports in the congested New York,
Chicago, and Dallas areas.

Challenges facing this initiative include close integration with airspace redesign as
future RNAV/RNP routes shift away from localized operations toward “networking”
routes between city pairs, such as Washington, D.C., and Chicago. It is also
important to note that current RNAV/RNP routes are only available to specially
equipped aircraft and trained aircrews, and air carriers must meet certain
qualifications to fly these special airport approaches. 5

To help speed the introduction of RNP, FAA is relying on non-government third
parties to develop and implement new procedures. FAA has stated that it would like
to delegate greater authority to third parties but is still defining these expanded roles
and responsibilities. A considerable level of oversight will be required, and we will
review this in greater detail later this year.

Air Traffic Management – This program, managed by FAA’s Command Center,
provides the Agency with the ability to manage air traffic and reduce the impact of
severe weather. The two major components of Air Traffic Management are the
Traffic Flow Management (TFM) Program and the Collaborative Air Traffic
Management Technologies Program. TFM includes a new tool, the Airspace Flow
Program, to collaboratively plan and manage traffic demand for airspace congestion
issues.

FAA is modernizing the overall TFM infrastructure for more than $500 million but
faces complex software development and integration issues. Another challenge is

5
    In this case, we are referring to special instrument flight procedures that are known as RNP Special Aircraft and Aircrew
    Authorization Required (SAAAR). RNP SAAAR is the certification required by FAA to allow aircrew to use RNP
    avionics during RNP approaches. RNP SAAAR helps aircraft fly more precise approaches and departures, thereby
    increasing operational efficiency and reducing operating costs, noise, and emissions.

Report Number AV-2008-087
                                                                                    5


introducing better weather forecasting techniques into this system. We note that
delays in implementing the new system could place the current system at risk of being
unable to handle the increased demand.

Automated Controller Tools – The Traffic Management Advisor (TMA) tool allows
air traffic controllers to better sequence aircraft to a runway and could therefore
enhance the flow of traffic. FAA has deployed TMA to all 20 en route centers in the
continental United States; 11 are fully operational, and the remaining systems are
slated to be ready later this year. The transition to TMA will continue to be complex
as new enhancements to this tool will require extensive software adaptation (site
customization) and new controller training.

The Interrelated Nature of Short-Term Capacity Initiatives Will Require
Management and Oversight at the National Level
Since 2001, FAA’s blueprint for capacity has been the Operational Evolution
Partnership (formerly known as the Operational Evolution Plan), which coordinates
relationships among programs. In 2007, FAA refocused the OEP to help manage the
implementation of NextGen. This plan was recently renamed the NextGen
Implementation Plan.

The plan’s initiatives that we examined are interdependent and span across the Air
Traffic Organization’s (ATO) three service units—Terminal, En Route, and Systems
Operations—and therefore require much coordination. However, such coordination is
often inhibited due to differences in the priorities and resources among these ATO
units.

Until recently, there was no single office responsible for overseeing nationwide
capacity initiatives. FAA has taken steps to reorganize the ATO and has established a
Senior Vice President for NextGen Implementation and Operations Planning. Also,
FAA is establishing a NextGen Integration and Implementation Office to oversee and
coordinate near-term capacity and other NextGen initiatives. The recent focus on
delays in the New York area raised questions about FAA’s management of short-term
capacity initiatives in the northeastern United States. To address these concerns, FAA
appointed a single person to coordinate regional airspace issues and all projects and
initiatives addressing congestion and delays in the New York area.

Several Key Issues Require Sustained Management Attention
In April, we highlighted several actions needed to help prevent a repeat of the summer
2007 air travel problems. In addition, there are several areas that require sustained
management attention by FAA.

Managing Capacity Initiatives as Portfolios – To successfully implement short-term
initiatives, FAA must manage these efforts in a highly integrated fashion. As we
noted in the past, it is important to link NextGen Implementation Plan projects with

Report Number AV-2008-087
                                                                                                            6


the operations and capital budgets. However, FAA lacks a long-term plan to sustain
its procedural programs funded in the operations budget as it does for capital
programs (e.g., new radar systems or controller displays) in the facilities and
engineering budget.

Keeping Planned Airport Infrastructure and Airspace Projects on Track – FAA needs
to ensure the navigation equipment, new procedures, and airspace modifications are in
place when its nine runway projects are commissioned in 2012 so that the expected
benefits can be achieved.

Maximizing Special Use Airspace – FAA needs to continue working with the
Department of Defense to open special-use airspace, which is often inactive, to create
additional lanes of traffic at specific chokepoints. Last year, joint efforts by the
Departments of Transportation and Defense to open up special-use airspace along the
east and west coasts before the winter holidays helped to reduce delays during these
heavy traffic periods. Industry groups noted that “repeatable procedures” need to be
developed to enhance coordination between military managers of special-use airspace
on each coast and at FAA’s Command Center during periods of severe weather.

Addressing Controller Training Issues – We recently reported challenges FAA faces
in training large numbers of developmental controllers to replace retirees. 6 At the
same time, FAA will be challenged to train controllers on capacity-enhancing efforts
since several new initiatives involve introducing new capabilities. To gain maximum
benefits from new technologies, it will be important for FAA to determine what can
be accomplished over the next several years with controller training.

Addressing Controller Productivity and Excessive Spacing on Final Approach – In its
December 2007 report, the New York ARC expressed concerns that excessive spacing
between aircraft on final approach has contributed significantly to arrival delays at
New York airports. FAA controllers and an internal study7 have noted that other
factors, such as weather and poor coordination between FAA air traffic control
facilities in the New York region, have also impacted spacing between aircraft. While
FAA has developed a new tool to help monitor spacing and embarked upon
educational efforts for controllers, clear and measurable performance expectations are
still needed.

Updating Capacity Benchmarks – An important first step in addressing the delay
problem in the 2000 timeframe was to develop a set of “capacity benchmarks” for the
Nation’s top 30 airports. However, FAA has not published updated capacity
benchmarks since 2004 and needs to do so as these are critical to understanding
airline scheduling practices and expected relief from technology and new runways.
At the very least, benchmarks can provide a common framework for understanding
6
    OIG Report Number AV-2008-055, “Review of Air Traffic Controller Facility Training Program,” June 5, 2008.
7
    Federal Aviation Administration New York Terminal Radar Control (TRACON) System Efficiency Assessment,
    February 4-8, 2008.

Report Number AV-2008-087
                                                                                       7


what maximum arrival and departure rates can physically be handled at the busiest
airports, by time of day, under good and poor weather conditions. This information
would be valuable to key decision makers and stakeholders.

In conclusion, there are several initiatives planned or underway that can provide some
relief from delays and boost capacity over the next 3 to 5 years. Each initiative,
however, faces challenges that must be fully addressed. FAA has recently taken
several steps to better organize and manage capacity initiatives in both the short and
long term and to help implement NextGen efforts. These include establishing a new
Senior Vice President for NextGen Implementation and Operations Planning as well
as a new office for NextGen integration. The details of these efforts are still evolving,
however, and it is too soon to evaluate their effectiveness. Therefore, we are not
making any recommendations at this time but will continue to monitor FAA’s
ongoing actions.

Objectives, Scope, and Methodology
We performed our review in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States. The enclosed briefing
further details our objectives, scope, and methodology and contains updated
information to supplement our July briefing and April testimony.

We provided the Senior Vice President for NextGen Implementation and Operations
Planning with a draft of our report and incorporated her comments where appropriate.
The Senior Vice President generally agreed with our analysis and results.

If I can answer any questions regarding this review, please contact me at (202)
366-1959 or Theodore Alves, Deputy Inspector General, at (202) 366-6767.

Sincerely,




Calvin L. Scovel III
Inspector General

Enclosure

cc: Acting FAA Administrator




Report Number AV-2008-087
                                              Enclosure
                                             Page 1 of 24


              Review of FAA’s Short-Term
                  Capacity Initiatives




                    Briefing to the House
                  Subcommittee on Aviation
AV-2008-087
                        July 2, 2008
                                                                                                    Enclosure
                                                                                                   Page 2 of 24




                                              Objectives

The Chairmen and Ranking Members of the House Transportation and Infrastructure Committee and its
Aviation Subcommittee requested that the Office of Inspector General (OIG) review FAA’s current
efforts to increase capacity in the National Airspace System (NAS). Specifically, they requested that we
provide our observations on the initiatives that will provide the most capacity benefits in the next
5 years, including updates of FAA’s efforts to redesign airspace and implement performance-based
navigation initiatives—Area Navigation (RNAV) and Required Navigation Performance (RNP).

Consistent with the request, our objectives were to (1) identify the initiatives—both technological and
procedural—that will provide the most capacity benefits in the next 5 years and (2) examine FAA’s
process for implementing capacity initiatives and managing interrelationships among the various efforts.
We provided our preliminary results at the Subcommittee’s April 9, 2008, hearing on congestion and
delays.




AV-2008-087
                                                                                                                                                                    Enclosure
                                                                                                                                                                   Page 3 of 24




                                                                                    Background

•      During fiscal year (FY) 2007, U.S. airlines handled over 700 million passengers, and this number is
       forecast to grow to over 1 billion by 2016 (see figure 1). Also, during FY 2007, U.S. domestic air
       carriers and commuter airlines performed over 25 million flight operations (take-offs and landings)—
       forecast to grow to 30 million operations by 2014 (see figure 2).


                         Figure 1. U.S. Air Carrier Passenger                                               Figure 2. Air Carrier Operations Within the
                      Enplanements Within the NAS, FY 2005-2016                                                         NAS, FY 2005-2016

                                                                                                           35     Mainline   Regional
                    1200     Mainline   Regional
                                                                                                           30
                    1000




                                                                                           (in millions)
                                                                                           Operations
    (in millions)
    Passengers




                                                                                                           25
                    800                                                                                    20
                    600                                                                                    15
                    400                                                                                    10
                                                                                                            5
                    200
                                                                                                            0
                      0                                                                                         2005 2006 2007 2008 2009 2010 2011 2012 2013 2014 2015 2016
                           2005 2006 2007 2008 2009 2010 2011 2012 2013 2014 2015 2016
                                                                                                                                        Fiscal Year
                                                   Fiscal Year

Source: FAA Aerospace Forecast, Fiscal Years 2008-2025                                   Source: FAA Aerospace Forecast, Fiscal Years 2008-2025




AV-2008-087
                                                                                                                Enclosure
                                                                                                               Page 4 of 24




                               Background (continued)

     •   In 2007, increased demand caused several
                                                                  Table 1. Increases in Flight Delays
         key airports (e.g., LaGuardia, John F.                           and Cancellations
         Kennedy, and Newark) to operate near or                  (Summer 2006 and Summer 2007)
         at full capacity, resulting in increased            Notable        Summer      Summer      Percent
         congestion and unprecedented delays.                Statistics       2006        2007      Change
     •   Operational performance of the NAS               Scheduled         1,986,654   2,014,279       +1%
         continued a downward trend in 2007 with          Flights
         one in four flights arriving late. This level    Percent Delayed     26%         29%           +12%
         of delay is worse than 2000 when aviation
         gridlock dominated the aviation agenda.          Airports With        9           26       +189%
                                                          Delays > 30
         Problems at the New York airports reached        Minutes
         intolerable levels and affected the entire       Length of           56          60            +6%
         NAS.                                             Arrival Delays    Minutes     Minutes
     •   On-time performance in summer 2007               Cancelled          37,396      47,911         +28%
         deteriorated over the already dismal levels      Flights
         of 2006, even though the number of flights       Percent             1.9%        2.4%          +26%
         essentially remained the same.                   Cancelled
                                                         Source: FAA


AV-2008-087
                                                                                                        Enclosure
                                                                                                       Page 5 of 24




                          Background (continued)


       •   Near-term initiatives are critical because much work remains to define and clarify NextGen
           benefits and timetables for capacity enhancing benefits. FAA is exploring ways to accelerate
           NextGen and what can be done in the near and mid term.

       •   As we testified in April, the airlines face considerable financial uncertainty due to
           skyrocketing fuel costs and a softening economy. The airlines continue to reduce schedules
           and take aircraft out of service. This situation provides FAA with opportunities to better plan
           and manage short- and long-term capacity initiatives.




AV-2008-087
                                                                                                       Enclosure
                                                                                                      Page 6 of 24




                                                Results

  Objective 1: Identify the initiatives—both technological and procedural—that will
  provide the most capacity benefits within the next 5 years.

    •   There is no “silver bullet” for reducing delays. However, there are a number of initiatives
        that can enhance capacity. We identified five FAA capacity initiatives that are expected to
        provide the most capacity benefits over the next 5 years.

                         1. Runways
                         2. Airspace Redesign
                         3. RNAV and RNP
                         4. Air Traffic Management
                         5. Controller Tools (e.g., Traffic Management Advisor)

    •   For each initiative, we identified issues or concerns that have the potential to affect
        implementation and limit expected benefits.




AV-2008-087
                                                                                                         Enclosure
                                                                                                        Page 7 of 24



                                      Objective 1 Results:
                                           Runways

        •     Constructing new runways and runway extensions is the most effective method of
              increasing capacity.

        •     Status of New Runways
              Since FY 2000, 13 new runways have opened at the 35 Partnership airports (formerly
              called OEP airports), thereby providing them with the potential to accommodate
              1.6 million more annual operations. Currently, seven OEP airports have nine airfield
              construction projects that are expected to be commissioned through 2012 (see table 2 on
              slide 8).




AV-2008-087
                                                                                                                            Enclosure
                                                                                                                           Page 8 of 24



                                               Objective 1 Results:
                                              Runways (continued)

                                   Table 2. Current Airfield Construction Projects
                 Airfield Construction Projects                       Est. Completion                      Cost Estimate
               Philadelphia                                       March 2009                          $65 million
               Seattle-Tacoma                                     November 2008                       $1.1 billion
               Washington-Dulles                                  November 2008                       $356 million
               Chicago O’Hare*                                    2012*                               $1.9 billion
               Charlotte                                          February 2010                       $300 million
               Dallas Ft. Worth                                   December 2008                       $79 million
               Boston                                             November 2009                       $55 million
              * Chicago O’Hare has three runway projects underway. Two of the three will be completed by November 2008.
                Source: FAA




AV-2008-087
                                                                                                                      Enclosure
                                                                                                                     Page 9 of 24



                                          Objective 1 Results:
                                          Runways (continued)

        •     Challenges to New Runway Initiatives

               -   Not all runway projects will increase capacity. At some airports, such as Los Angeles
                   International, a new runway will only replace an existing runway.

               -   Runway capacity benefits cannot be realized without airspace and procedural changes. In fact,
                   FAA states that 40 to 60 percent of projected capacity would be lost without corresponding
                   airspace changes.

               -   Some airports, such as LaGuardia and Las Vegas, need additional capacity but do not have the
                   space to add new runways. Other airports may benefit by minimizing runway crossings through
                   new taxiway designs.

               -   To accommodate the additional traffic generated by new runways, airports need to plan and build
                   additional gates and passenger receiving areas. A good example of this is Atlanta Hartsfield-
                   Jackson Airport, which is building new gates.




AV-2008-087
                                                                                                                        Enclosure
                                                                                                                       Page 10 of 24



                                         Objective 1 Results:
                                         Airspace Redesign
     •   Airspace redesign is an important but often overlooked capacity enhancing initiative.
         History shows that airspace redesign efforts, even without new infrastructure, can enhance
         the flow of air traffic.
     •   Status of Airspace Redesign Initiatives
          -   In May 2005, we reported that the management and oversight of airspace projects were fragmented
              between FAA Headquarters and various local facilities. Further, we found that FAA’s overall
              process for controlling costs, mitigating risks, and coordinating efforts was not effective.
              Specifically, FAA did not have reliable project cost estimates and did not prioritize airspace redesign
              projects according to Agency national goals. FAA also did not effectively coordinate projects or
              link them to the Agency’s budget process.

          -   In response to our report, FAA made several changes to the airspace program, including focusing
              efforts on high-priority projects with national significance and assigning trained project managers to
              each new project.

          -   For FY 2007, FAA approved seven airspace redesign projects as national programs. However, only
              three projects received full funding due to funding shortfalls (New York/New Jersey/Philadelphia
              Metropolitan Airspace Redesign, Chicago Airspace, and Houston Area Air Traffic System).

          -   Since 2004, the number of, and funding for, airspace projects has steadily declined (see table 3 on
              slide 11).

AV-2008-087
                                                                                          Enclosure
                                                                                         Page 11 of 24



                                 Objective 1 Results:
                            Airspace Redesign (continued)

                              Table 3. Current Projects and Funding Profile
                   Fiscal Year        Number of     Operations Budget   Capital Budget
                                       Projects

                       2004              42            $21.0 million          None
                       2005              42            $15.3 million          None
                       2006              20            $8.5 million           None
                       2007               7            $6.8 million       $1.1 million
                       2008               9            $10.7 million      $5.0 million
                    (Proposed)
                      2009                8            $8.2 million       $3.0 million
                    (Estimate)
              Source: FAA




AV-2008-087
                                                                                                                          Enclosure
                                                                                                                         Page 12 of 24



                                Objective 1 Results:
                           Airspace Redesign (continued)

        •     Challenges to Airspace Redesign Initiatives

               -   FAA identified seven projects as national priorities for FY 2007 but was only able to fully fund
                   three projects. In fact, one of the seven national projects (Southern California) was put on “hold”
                   indefinitely because there was no guarantee of sustained funding for the environmental phase.

               -   FAA’s airspace redesign effort is not functioning as a national program. There is little central
                   coordination at the FAA Headquarters level, and some FAA facilities are using their own
                   resources to redesign airspace without coordinating with Headquarters. As a result, some projects
                   are not being measured against national priorities and may not conform to the needs of the rest of
                   the NAS.

               -   Airspace redesign initiatives are cross-cutting efforts that require close coordination among the
                   Air Traffic Organization (ATO) units. It is important for FAA to (1) finalize procedures for
                   working across ATO lines of business to implement airspace redesign initiatives and
                   (2) determine what can reasonably be accomplished with airspace redesign efforts in the near
                   term.




AV-2008-087
                                                                                                                  Enclosure
                                                                                                                 Page 13 of 24



                                         Objective 1 Results:
                                          RNAV and RNP
        •     RNAV consists of procedures that allow aircraft to fly on any desired flight path without the
              limitations imposed by ground-based navigation aids. RNP takes advantage of an airplane’s
              on-board navigation avionics capability to fly a more precise flight path into an airport.

        •     Status of FAA’s Initiatives To Move Forward With RNAV /RNP

               -   As of June 2008, FAA had published over 400 RNAV/RNP procedures. In 2007, FAA published
                   69 RNAV routes and 41 RNP procedures. To accomplish this, FAA focused on what could be done
                   without extensive environmental review, which is normally a factor when new routes are involved. For
                   FY 2008, FAA intends to publish at least 50 RNAV procedures and 25 RNP procedures. For FY 2009,
                   it plans to publish 50 RNAV and 50 RNP procedures.

               -   To help speed the introduction of RNP procedures, FAA signed agreements with two private vendors
                   (Naverus and Jeppesen) to develop and implement public RNP Special Aircraft and Aircrew
                   Authorization Required procedures. FAA has proposed giving greater authority for developing and
                   implementing new procedures to third parties. It will be important to clearly define roles and
                   responsibilities for that process.




AV-2008-087
                                                                                                                    Enclosure
                                                                                                                   Page 14 of 24



                               Objective 1 Results:
                             RNAV and RNP (continued)

        •     Challenges To Implementing RNAV/RNP

               -   Current RNAV and RNP routes are largely overlays of existing routes and do not require
                   extensive environmental reviews. However, new routes that will take full advantage of
                   RNAV/RNP capabilities may require more extensive environmental reviews, which could take up
                   to 8 years.

               -   Thus far, FAA has developed RNAV/RNP procedures primarily for local operations. However,
                   significant benefits may be realized by “networking” RNAV/RNP routes between city pairs. This
                   will require that FAA closely integrate RNAV/RNP procedures with airspace redesign efforts.
                   Considerable simulation and modeling will also be required.

               -   FAA modernization efforts will impact the implementation of RNAV/RNP procedures. For
                   example, moratoriums on new procedures at sites where En Route Automation Modernization
                   (ERAM) systems are being installed will limit FAA’s ability to implement new procedures at
                   critical times between 2009 and 2012. If ERAM installation is delayed, implementation of
                   RNAV/RNP procedures may also be delayed.




AV-2008-087
                                                                                                                       Enclosure
                                                                                                                      Page 15 of 24



                                Objective 1 Results:
                              RNAV and RNP (continued)

   •   Challenges To Implementing RNAV/RNP (continued)

        -     Controllers must manage a “mixed equipage environment” in which they manage both RNAV/RNP
              and non-RNAV/RNP aircraft within the same airspace. This may limit the benefits from RNAV/RNP
              operations.

        -     FAA will need to develop new criteria for complex RNP procedures, and operators will need to work
              with FAA for RNP approvals and authorizations (including pilot training and company requirements).

        -     Initially, controller training has been minimal because the controllers are already familiar with the
              routes. As FAA advances toward RNAV/RNP routes that are significantly different from existing
              routes (e.g., network routes), extensive controller training will be required.

        -     FAA will need to standardize phraseology for controllers and pilots to build upon RNAV/RNP
              procedures and potential capabilities to enhance capacity.

        -     Airspace users may have to invest in more modern navigation equipment to take advantage of the
              benefits from RNAV/RNP procedures.




AV-2008-087
                                                                                                                     Enclosure
                                                                                                                    Page 16 of 24



                                       Objective 1 Results:
                                     Air Traffic Management

        •     Air Traffic Management is a combination of Air Traffic Control and the Traffic Flow
              Management (TFM) program. TFM, managed by FAA’s Command Center, is the
              Nation’s focal point for capturing and disseminating air traffic information across the
              aviation community. TFM is comprised of two major components: the TFM-
              Modernization (TFM-M) Program and the Collaborative Air Traffic Management
              Technologies (CATMT) Program. TFM includes a new tool, the Airspace Flow
              Program (AFP), to collaboratively plan and manage traffic demand for airspace
              congestion issues. AFP, which also operates from FAA’s Command Center, enables both
              the Agency and the airlines to reduce the impact of severe weather.
        •     Status of Air Traffic Management Initiatives
               -   Improvements to TFM include the capability for improved planning and execution of routes by
                   2010. This will help the FAA and user communities react more quickly and efficiently to severe
                   weather situations. FAA inaugurated the AFP in June 2006 in the northeastern United States and
                   expanded it to the rest of the country in the spring of 2007.

               -   During the 2006 convective weather season, FAA implemented the AFP program in the northeast
                   on 19 severe weather days. As a result, FAA did not solely rely on widespread use of ground
                   delay programs in the northeast corridor as in the past, which would have needlessly delayed
                   thousands of flights.


AV-2008-087
                                                                                                                         Enclosure
                                                                                                                        Page 17 of 24



                           Objective 1 Results:
                   Air Traffic Management (continued)

        •     Challenges to Air Traffic Management Initiatives

               -   Although FAA has been deploying new software releases every 6 months, the age of the TFM
                   system prevents further upgrades. The service life for the currently fielded TFM hardware and
                   software expires in December 2009.

               -   FAA faces complex software development and integration issues, particularly in the development
                   of the TFM-Modernization (TFM-M) system. While FAA has scheduled TFM-M to begin its
                   operational phase in September 2008, the Agency has yet to determine when the system will
                   become fully operational (estimated completion of deployment by FY 2010-2013). Delays in
                   implementing the new system could place the current system at risk of not being able to handle
                   the increased demand.

               -   It will be important for FAA to determine how best to (1) integrate weather forecast products into
                   Air Traffic Management decision support capabilities and (2) improve common situational
                   awareness related to weather forecasts and collaborative decision making with airspace users.




AV-2008-087
                                                                                                                        Enclosure
                                                                                                                       Page 18 of 24



                                           Objective 1 Results:
                                            Controller Tools

  •   Traffic Management Advisor (TMA) is a controller tool that could enhance the flow of air
      traffic. TMA is a software tool that applies the technique of “time-based metering” rather than
      miles-in-trail to manage traffic. TMA helps controllers (who manage high-altitude traffic) by
      predicting the time an aircraft will cross a navigation fix, sequencing them for arrival, and
      identifying conflicts with the predicted flight profiles of other aircraft.

  •   Status of the TMA Initiative

       -      TMA is installed at all 20 en route centers in the continental United States. Eleven of these are currently
              fully operational, and 9 are expected to be fully operational by the end of FY 2008.

       -      FAA is adding an adjacent center metering feature to TMA. This enables metering and spacing to be
              coordinated between adjacent en route centers. This will extend TMA beyond a single center and provide
              regional metering to airports.




AV-2008-087
                                                                                                                        Enclosure
                                                                                                                       Page 19 of 24



                                Objective 1 Results:
                             Controller Tools (continued)

        •     Challenges To Using TMA To Enhance Capacity

                -   The use of TMA represents a significant change in how controllers manage traffic. Effective
                    training will be required for traffic management personnel and controllers to gain confidence in
                    the automated functions of TMA.

                -   To realize additional benefits, FAA needs to evolve TMA into managing traffic beyond the
                    proposed adjacent center metering concept (also known as “regional center TMA”). To gain
                    maximum benefits, traffic will need to be metered and spaced from the point of origin to the
                    destination, called “multi-center TMA.” This will require some additional development and
                    greater coordination between FAA facilities and the FAA Command Center.




AV-2008-087
                                                                                                                       Enclosure
                                                                                                                      Page 20 of 24




                                          Objective 2 Results

        Objective 2: Examine FAA’s process for implementing capacity initiatives and
        managing interrelationships among the various efforts.
         •    Implementing Capacity Initiatives

               -   Various short-term capacity projects are interdependent. For example, FAA needs to adjust airspace
                   to get the most benefits from RNAV/RNP procedures.

               -   Since 2001, FAA’s blueprint for capacity initiatives has been the Operational Evolution Partnership
                   (formerly called the Operational Evolution Plan or OEP). The OEP is FAA’s mechanism for
                   managing the interrelationships among programs. Overall, FAA’s efforts to guide capacity
                   initiatives have been successful. FAA recently refocused the OEP to help manage and implement
                   NextGen initiatives and renamed it the NextGen Implementation Plan.

               -   FAA’s short-term capacity initiatives cut across the ATO’s three lines of business (i.e., Terminal,
                   En Route, and Systems Operations) and will require greater coordination. Such coordination is
                   inhibited, however, as a result of differences in priorities and availability of resources among these
                   three ATO units.



AV-2008-087
                                                                                                                       Enclosure
                                                                                                                      Page 21 of 24




                          Objective 2 Results (continued)

        •     FAA’s Management of Interrelated Efforts
               -   Until recently, there was no single FAA office in charge of overseeing capacity initiatives. FAA
                   has established a NextGen Integration and Implementation Office to oversee and coordinate
                   capacity initiatives.
               -   The recent focus to address short-term issues in and around New York airspace raised questions
                   about FAA’s management of short-term capacity initiatives in the northeastern United States. To
                   address these concerns, FAA put a single person in charge of New York area efforts to coordinate
                   initiatives.

        •     We identified several areas that require FAA’s attention.
               -   Managing Capacity Initiatives as Portfolios – To successfully implement short-term capacity
                   initiatives, FAA must manage initiatives as portfolios—or in a highly integrated fashion. This
                   would help link short-term capacity requirements and initiatives to the capital and operations
                   accounts.
               -   Keeping Planned Airport Infrastructure and Airspace Projects on Track – Nine key runway
                   projects are currently underway at seven airports (including projects at Washington Dulles and
                   Chicago O’Hare) and are planned to be commissioned by 2012. FAA needs to make sure the
                   navigation equipment, new procedures, and airspace modifications are in place when these
                   projects are commissioned so that expected benefits can be achieved.



AV-2008-087
                                                                                                                       Enclosure
                                                                                                                      Page 22 of 24




                        Objective 2 Results (continued)

         -    Maximizing Special Use Airspace (SUA) – More effective management and better scheduling of
              SUA is needed to make maximum use of airspace. As demonstrated by the Departments of
              Transportation and Defense decision to use military airspace over the holidays last year, use of such
              airspace can enhance the flow of air traffic. The goal is for improved schedule information to be
              made available to FAA and airspace users. There may be opportunities to make better use of SUA
              when planned military operators and training missions have been cancelled.

         -    Addressing Controller Training – FAA faces challenges in training large numbers of
              developmental controllers to replace retirees while concurrently training controllers to learn new
              short-term initiatives. Several of these short-term capacity measures, such as TMA and RNAV/RNP,
              involve automating previously manual and decision-making processes. To gain maximum benefits
              from this new technology, traffic flow managers and controllers will need to be trained in how to use
              these new tools and processes. Currently, FAA only provides limited training for TMA and little
              training for RNAV/RNP. FAA needs to determine what reasonably can be accomplished in the short
              term with respect to controller training.




AV-2008-087
                                                                                                                     Enclosure
                                                                                                                    Page 23 of 24




                         Objective 2 Results (continued)

              -   Examining Controller Productivity and Excessive Spacing on Final Approach – In its
                  December 2007 report, the New York Aviation Rulemaking Committee reported that the spacing
                  between aircraft on their final approach had been steadily increasing beyond that needed for safety
                  and contributed significantly to arrival delays at John F. Kennedy, LaGuardia, and Newark
                  Liberty airports. Air Traffic Organization officials commented that concerns about excessive
                  spacing extend beyond New York facilities. We discussed the issue with the controllers union,
                  and they pointed out that other factors, such as weather conditions, also impacted spacing between
                  aircraft. An internal FAA study found that problems were also traceable to poor coordination
                  among FAA facilities. FAA has developed a tool to help monitor spacing and embarked upon
                  educational efforts for controllers in both the en route and terminal lines of business. FAA needs
                  to complete efforts to establish clear and measurable performance expectations.

              -   Updating Capacity Benchmarks – An important first step in addressing the delay problem in the
                  2000 timeframe was to develop a set of “capacity benchmarks” for the Nation’s top 30 airports.
                  However, FAA has not published updated capacity benchmarks since 2004.




AV-2008-087
                                                                                                                 Enclosure
                                                                                                                Page 24 of 24




                                  Scope and Methodology

        •     We conducted this audit between May 2, 2007, and June 30, 2008. During the audit, we
              met with and obtained documentation from officials representing:
                -   FAA Headquarters (Airspace Management Program, RNAV/RNP Group, Office of
                    Performance Analysis, Airports Division, Weather Group)
                -   FAA Air Traffic Control System Command Center
                -   FAA Western, Central, and Eastern Service Centers
                -   FAA Northeast U.S. Region
                -   FAA facilities in Los Angeles, CA; Seattle, WA; Anchorage and Juneau, AK; Las Vegas, NV;
                    Dallas and Ft. Worth, TX; Long Island, NY; and Atlanta, GA.
                -   Local airport authorities in Dallas, TX; New York, NY; and Atlanta, GA.
                -   Southwest Airlines and Alaska Airlines
                -   Naverus, Inc.

        •     We reviewed:
                -   FAA policies and procedures for coordinating, designing, and implementing RNAV/RNP
                    procedures.
                -   Terms of the Other Transaction Agreement for third party design and implementation of RNP
                    procedures.
                -   FAA regulations relating to airspace usage and aircraft sequencing and spacing.
                -   FAA plans for installing and implementing short-term capacity automation initiatives.
                -   FAA plans and procedures for implementing short-term capacity procedural initiatives.

AV-2008-087
The following pages contain textual versions of the graphs and charts included in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
                 Observations on Short-Term Capacity Initiatives
                      Section 508 Compliant Presentation

Figure 1. U.S. Air Carrier Passenger Enplanements Within the National Airspace
System, Fiscal Year 2005 to Fiscal Year 2016
Fiscal Year 2005 587 million mainline (air carrier) and 150 million regional (air
                   taxi/commuter) air carrier passenger enplanements
Fiscal Year 2006 584 million mainline (air carrier) and 156 million regional (air
                   taxi/commuter) air carrier passenger enplanements
Fiscal Year 2007 606 million mainline (air carrier) and 159 million regional (air
                   taxi/commuter) air carrier passenger enplanements
Fiscal Year 2008 614 million mainline (air carrier) and 162 million regional (air
(projected)        taxi/commuter) air carrier passenger enplanements
Fiscal Year 2009 634 million. mainline (air carrier) and 171 million regional (air
(projected)        taxi/commuter) air carrier passenger enplanements
Fiscal Year 2010 658 million mainline (air carrier) and 178 million regional (air
(projected)        taxi/commuter) air carrier passenger enplanements
Fiscal Year 2011 677 million mainline (air carrier) and 185 million regional (air
(projected)        taxi/commuter) air carrier passenger enplanements
Fiscal Year 2012 698 million mainline (air carrier) and 191 million regional (air
(projected)        taxi/commuter) air carrier passenger enplanements
Fiscal Year 2013 719 million mainline (air carrier) and 198 million regional (air
(projected)        taxi/commuter) air carrier passenger enplanements
Fiscal Year 2014 738 million. mainline (air carrier) and 205 million regional (air
(projected)        taxi/commuter) air carrier passenger enplanements
Fiscal Year 2015 760 million mainline (air carrier) and 213 million regional (air
(projected)        taxi/commuter) air carrier passenger enplanements
Fiscal Year 2016 781 million mainline (air carrier) and 221 million regional (air
(projected)        taxi/commuter) air carrier passenger enplanements

Source: FAA Aerospace Forecast, Fiscal Years 2008-2025
Figure 2. Air Carrier Operations Within the National Airspace System, Fiscal Year
2005 to Fiscal Year 2016

Fiscal Year 2005               13.5 million mainline (air carrier) and 12.6 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2006               13.3 million mainline (air carrier) and 12 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2007               13.6 million mainline (air carrier) and 11.7 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2008 (projected)   13.8 million mainline (air carrier) and 11.5 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2009 (projected)   14.1 million mainline (air carrier) and 11.8 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2010 (projected)   14.5 million mainline (air carrier) and 12.2 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2011 (projected)   14.9 million mainline (air carrier) and 12.6 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2012 (projected)   15.2 million mainline (air carrier) and 13.1 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2013 (projected)   15.6 million mainline (air carrier) and 13.5 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2014 (projected)   16 million mainline (air carrier) and 14 million regional (air
                               taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2015 (projected)   16.4 million mainline (air carrier) and 14.5 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System
Fiscal Year 2016 (projected)   16.9 million mainline (air carrier) and 14.9 million regional
                               (air taxi/commuter) air carrier operations within the National
                               Airspace System

Source: FAA Aerospace Forecast, Fiscal Years 2008-2025
Table 1. Increases in Flight Delays and Cancellations (Summer 2006 and Summer 2007)

   •   In the summer of 2006, there were 1,986,654 scheduled flights. In the summer of
       2007, there were 2,014,279. This represents a 1 percent change.
   •   In the summer of 2006, flight delays represented 26 percent of all scheduled flights.
       In the summer of 2007, flight delays represented 29 percent of all scheduled flights.
       This represents a 12 percent change.
   •   In the summer of 2006, there were 9 airports with delays of 30 minutes or more. In
       the summer of 2007, there were 26 airports. This represents a 189 percent change.
   •   In the summer of 2006, the average length of arrival delays was 56 minutes. In the
       summer of 2007, the average was 60 minutes. This represents a 6 percent change.
   •   In the summer of 2006, there were 37,396 cancelled flights. In the summer of 2007,
       there were 47,911. This represents a 28 percent change.
   •   In the summer of 2006, the percentage of cancelled flights was 1.9 percent of all
       scheduled flights. In the summer of 2007, the percentage of cancelled flights was
       2.4 percent of all scheduled flights. This represents a 26 percent change.

   Source: FAA

Table 2. Current Airfield Construction Projects

Philadelphia airfield          Estimated completion date:       Estimated Cost: $65 million
construction project           March 2009
Seattle-Tacoma airfield        Estimated completion date:       Estimated Cost: $1.1 billion
construction project           November 2008
Washington-Dulles airfield     Estimated completion date:       Estimated Cost: $356 million
construction project           November 2008
Chicago O’Hare airfield        Estimated completion date:       Estimated Cost: $1.9 billion
construction project           2012
Charlotte airfield             Estimated completion date:       Estimated Cost: $300 million
construction project           February 2010
Dallas Fort Worth airfield     Estimated completion date:       Estimated Cost: $79 million
construction project           December 2008
Boston airfield construction   Estimated completion date:       Estimated Cost: $55 million
project                        November 2009

Note: Chicago O’Hare has three runway projects underway. Two of the three will be
completed by November 2008.

Source: FAA
Table 3. Current Airspace Redesign Projects and Funding Profile

In fiscal year 2004, there were 42 airspace projects. Funding for these from the Operations
Budget was $21 million, and $0 from the Capital Budget.

In fiscal year 2005, there were 42 airspace projects. Funding for these from the Operations
Budget was $15.3 million, and $0 from the Capital Budget.

In fiscal year 2006, there were 20 airspace projects. Funding for these from the Operations
Budget was $8.5 million, and $0 from the Capital Budget.

In fiscal year 2007, there were 7 airspace projects. Funding for these from the Operations
Budget was $6.8 million, and $1.1 million from the Capital Budget.

In fiscal year 2008, there are 9 proposed airspace projects. Proposed funding for these from
the Operations Budget is $10.7 million, and $5.0 million from the Capital Budget.

In fiscal year 2009, there are 8 estimated airspace projects. Estimated funding for these from
the Operations Budget is $8.2 million, and $3.0 million from the Capital Budget.

Source: FAA
